                             __       I
                                      -




                                          n                                       n                        r      a       ~
                                                           NATIONAL
                                                            OFFICE OFSCIENCE
                                                                     INSPECTOR
                                                                             FOUNDATION
                                                                               GENERAL

     z
      .
      4
                                                             OFFICE OF INVESTIGATIONS
                                                                                                                      I
     $o ! ? !
       30 n<\O
                                                  CLOSEOUT MEMORANDUM

    Case Number: I06100033
                                                                                      I            Page 1 of 1



                                                                         '
                     NSF OIG was contacted by a Program Officer who had received an email from an
             individual2who reported that the board of directors of a company3had voted to return 213 of an
             investor's initial investment to that investor. The individual was concerned that the company might
             not complete the work under an NSF award4and that the return of the funds might be seen as part of
             a fraud to put up the funds in order to quali@for the award and, after the award was made, return the
             funds to the investor.

                     We reviewed the matters provided by the individual and spoke with the Program Officer and
             the Program ~ i r e c t o r .They
                                           ~ have determined, after discussions with the Office of General Counsel,
             that decisions made and actions taken by the company have been business-driven and that there is no
             indication of hudulent conduct on the part of the company.

                       Accordingly, this case is closed.

~




             :
             4
             5
              I
    NSF OIG Form 2 (11/02)
